Nos. 19-715 and 19-760

 

 

IN THE

Supreme Court of the United States

DONALD J. TRUMP, ET AL., PETITIONERS,
Uv.

Mazars USA, LLP, ET AL.

DONALD J. TRUMP, ET AL., PETITIONERS,
Uv

DEUTSCHE BANK AG, ET AL.

ON WRITS OF CERTIORARI
TO THE UNITED STATES COURTS OF APPEALS
FOR THE DISTRICT OF COLUMBIA AND SECOND CIRCUITS

BRIEF FOR FORMER SENIOR
DEPARTMENT OF JUSTICE OFFICIALS
AS AMICI CURIAE IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,080 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 4, 2020.

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
